U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 19, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Croghan v. United States, No. 20-6948
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 18,
2021. The government’s response is now due, after one extension, on March 29, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including April 28, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-6948
CROGHAN, BEAU BRANDON
USA

BRADLEY HANSEN
FEDEAL DEFENDER'S OFFICE
400 LOCUST STREET
STE. 340
DES MOINES, IA 50309

